No. 20-740

IN THE
SUPREME COURT OF THE UNITED STATES

JIM BOGNET, ET AL.,
Petitioners,
v.
KATHY BOOCKVAR, SECRETARY OF THE COMMONWEALTH OF
PENNSYLVANIA, ET AL.,
Respondents.

On Petition for Writ of Certiorari to
the United States Court of Appeals
for the Third Circuit

CERTIFICATE OF WORD COUNT

As required by Supreme Court Rule 33.1(h), I certify that the
Respondent’s Brief in Opposition was prepared using Century 12 point
typeface and contains 1,162 words. This certificate was prepared in
reliance on the word-count function of Microsoft Word, the word
processing system used to prepare the document. I declare under penalty
of perjury that the foregoing is true and correct.

Executed on March 15, 2021.

Respectfully submitted,

 
  

MQARDSOL Od ee

Melissa A. Guiddy, Esquire {\
2 North Main Street Suite 103 (|
Greensburg, PA 15601 ed
(724) 830-3553
meguiddy@co.westmoreland.pa.us
Counsel for Westmoreland County
Board of Elections

 

 
